                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE
                            OF INSPECTOR GENERAL 
                      
                      



                     EPA Data Standards Plan
                     Completed But Additional
                     Steps Are Needed
                     Report No. 12-P-0519                    June 5, 2012




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:	                              Rudolph M. Brevard
                                                   Warren Brooks
                                                   Teresa Richardson
                                                   Rashad Holloway




Abbreviations

CIO           Chief Information Officer
CPIC          Capital Planning and Investment Control
DERS          Data Element Registry Service
EPA           U.S. Environmental Protection Agency
OEI           Office of Environmental Information
OIG           Office of Inspector General
READ          Registry of EPA Applications and Databases




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                              12-P-0519
                        Office of Inspector General                                                       June 5, 2012




                        At a Glance

Why We Did This Review              EPA Data Standards Plan Completed
We sought to determine              But Additional Steps Are Needed
what progress the U.S.
Environmental Protection             What We Found
Agency (EPA) made in
                                    Although EPA completed the steps listed in its corrective action plan to close out
completing its corrective action
                                    the Agency-level weakness on data standards, the actions taken were either
plan to close out the Agency-
                                    incomplete or lacked steps to help management determine the overall
level weakness on data
                                    effectiveness of the Agency’s implementation of data standards. In particular, we
standards.
                                    determined that EPA:
Background                              	 Developed a data standards training program. However, management
                                           took no steps to identify who needed the training, track whether the
In fiscal year 2005, EPA
                                           appropriate personnel took the training, or obtain feedback from staff on
recognized data standards as an
                                           the training to ascertain the training’s effectiveness.
Agency-level weakness, and
the Office of Environmental             	 Created data standards report cards. However, these report cards are
Information developed a                    inaccurate because EPA offices did not update the system used to create
corrective action plan to                  the report cards. Also, the report card format is such that management
address this weakness. EPA’s               could not clearly see whether individual offices were in compliance with
corrective action plan was                 data standards.
based on completing three               	 Completed two conformance reviews to determine system compliance
concurrent courses of action.              with the data standards. However, management made no plans to conduct
These actions include                      additional reviews.
(1) communicating with EPA
program offices on the need to       What We Recommend
implement data standards more
                                    Based on our on-going discussions with EPA officials, we modified the draft
fully, (2) tracking program
                                    report recommendations to be consistent with the new strategy EPA plans to take
implementation of data
                                    to implement data standards. As such, among other recommendations, we
standards, and (3) verifying
                                    recommend that the Assistant Administrator for Environmental Information:
progress in implementing data
standards.                              	 Update the data standards guidance available to EPA offices.
                                        	 Implement a new data standards communication plan.
                                        	 Provide specific instructions to EPA offices for updating the Registry of
                                           EPA Applications and Databases.
                                        	 Create a high-level data standards report card for senior executives.
                                        	 Develop a new strategy for ensuring compliance with data standards.
For further information, contact
our Office of Congressional and      Planned Agency Corrective Actions
Public Affairs at (202) 566-2391.
                                    The Agency concurred with the recommendations and provided a complete
The full report is at:
www.epa.gov/oig/reports/2012/
                                    corrective action plan to address our revised recommendations.
20120605-12-P-0519.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                              THE INSPECTOR GENERAL




                                          June 5, 2012

MEMORANDUM

SUBJECT:	 EPA Data Standards Plan Completed But Additional Steps Are Needed
          Report No. 12-P-0519


FROM:	         Arthur A. Elkins, Jr.

TO:	           Malcolm D. Jackson
               Assistant Administrator for Environmental Information and
               Chief Information Officer


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

We have closed this report in our audit tracking system based on your response to the draft
report. We believe the proposed actions, when implemented, will adequately address the report’s
findings and recommendations. Please provide updated information in EPA’s Management Audit
Tracking System as you complete each planned corrective action or revise any corrective actions
and/or milestone dates. If you are unable to meet your planned milestones, or believe other
corrective actions are warranted, please send us a memorandum stating why you are revising the
milestones or why you are proposing alternative corrective actions, as required by EPA Manual
2750.

If you or your staff have any questions regarding this report, please contact Rudolph M. Brevard,
Director, Information Resources Management Assessments, at (202) 566-0893 or
brevard.rudy@epa.gov; or Warren M. Brooks, Project Manager, at (202) 566-2467 or
brooks.warren@epa.gov.
EPA Data Standards Plan Completed                                                                                              12-P-0519
But Additional Steps Are Needed


                                      Table of Contents 

   Purpose .......................................................................................................................    1


   Background ................................................................................................................        1


   Scope and Methodology ............................................................................................                 2


   Results of Review .......................................................................................................          2


           Online Training May Not Ensure Working Knowledge of 

               Data Standards Implementation....................................................................                      3

           Data Standards Report Cards Are Inaccurate and Cumbersome .......................                                          4

           Data Standards Conformance Reviews Are Not Performed or Planned ..............                                             5


   Conclusion ..................................................................................................................      7


   Recommendations .....................................................................................................              7


   Agency Comments and OIG Evaluation ..................................................................                              8


   Status of Recommendations and Potential Monetary Benefits..............................                                            9




Appendices
   A       Agency Corrective Action Plan (as of February 27, 2006) .............................                                     10 


   B       Agency Response to Draft Report ...................................................................                       12 


   C       Subsequent Agency Response to Draft Report .............................................                                  16


   D       Distribution ........................................................................................................     19

Purpose
            We sought to determine what progress the U.S. Environmental Protection Agency
            (EPA) has made in completing its corrective action plan to correct the Agency-
            level weakness on data standards.

Background
            The Reinventing Environmental Information initiative of 1995 directed EPA to
            develop data standards used in core business areas and implement data standards
            in all of EPA’s national information systems. As defined in the Agency’s Data
            Standards Policy, “data standards are documented consensus-based agreements
            on the format and definition of common data.” The policy states:

                   The use of common terminology and common data element
                   definitions enables the integration of databases, and promotes more
                   efficient and effective use of data by users of commonly defined
                   data from disparate sources. By using data standards, EPA
                   managers and the public can more quickly and accurately conduct
                   environmental assessment and analyze environmental data,
                   maximize use of resources, and be assured of greater data integrity.
                   The goal of the program is to ensure all Agency information
                   systems and data exchange efforts use approved data standards.

            In fiscal year 2005, EPA first recognized data standards as an Agency-level
            weakness. The Office of Environmental Information (OEI) developed a
            comprehensive action plan to address this weakness. The plan indicated that the
            Agency would undertake three concurrent courses of action:

               1.	 Communicate with EPA program offices on the need to implement data
                   standards more fully
               2.	 Track program implementation of data standards
               3.	 Verify progress in implementing data standards

            OEI developed its Data Standards Policy in March 2007. The policy applies to all
            Agency systems that exchange data within and outside EPA, or between EPA and
            its business partners. The Data Standards Policy “establishes principles,
            responsibilities, and requirements for the development, maintenance, and
            implementation of data standards,” and reflects “EPA’s commitments to improve
            data quality and promote data interoperability, exchanges, sharing and the ability
            to effectively use the data in situations other than originally intended.”

            The Federal Managers’ Financial Integrity Act requires agencies to establish
            internal controls to provide reasonable assurance that the integrity of agency
            programs and resources are protected from fraud, waste, abuse, and
            misappropriation. Likewise, Office of Management and Budget Circular A-123,


12-P-0519                                                                                     1
            Management’s Responsibility for Internal Control, provides guidance for
            managers responsible for internal control. As such, Agency managers are
            responsible for taking timely and effective action to correct deficiencies.
            Managers should determine that a reportable condition has been corrected only
            when sufficient corrective actions have been taken and the desired results
            achieved, to include keeping detailed and organized documentation that contains
            sufficient information to support management’s assertions.

Scope and Methodology
            We evaluated EPA’s implementation of data standards based on its three courses
            of action outlined in the corrective action plan dated February 27, 2006.
            Appendix A contains the complete corrective action plan. We focused on the
            Agency’s data standards communication plan, the data standards online training
            process, and the mechanism for reporting compliance with the data standards
            (i.e., data standards report cards). We also reviewed the Agency’s process for
            choosing systems that require compliance with data standards.

            We conducted this audit from April 2010 through December 2011 at EPA
            headquarters in Washington, DC. During our audit, we interviewed Agency
            personnel within the OEI Data Standards Branch. We requested and reviewed
            supporting documentation for completed corrective actions. We analyzed EPA’s
            communication plan to promote the implementation of data standards to the
            Agency. In addition, we compared the Agency’s classroom data standards training
            to the current web-based training modules to assess the effectiveness of the
            current system. To evaluate EPA’s data standards compliance reporting method,
            we reviewed the most recent data standards report cards for an understanding of
            what the report cards capture and convey. Further, we interviewed program office
            system administrators to understand their processes for updating their systems’
            data standards compliance status. We analyzed the data standards report cards for
            updating and reporting accuracy. We reviewed the Data Standards Policy to
            determine whether all systems meet the Agency’s criteria for compliance with
            data standards. We analyzed information technology investment documentation
            for 21 systems not included in the Agency’s inventory.

            We conducted this audit in accordance with generally accepted government
            auditing standards. Those standards require that we plan and perform the audit to
            obtain sufficient, appropriate evidence to provide a reasonable basis for our
            findings and conclusions based on our audit objectives. We believe that the
            evidence obtained provides a reasonable basis for our findings and conclusions on
            our audit objectives.

Results of Review
            Our audit determined that steps the Agency has taken to improve data standards
            did not meet the intended goal. Management cannot be assured that the time,


12-P-0519                                                                                     2
            money, and effort spent on implementing data standards achieved the desired
            effects. EPA completed the data standards corrective action plan, as well as
            provided guidance for the implementation. However, the actions taken were
            incomplete or lacked steps to help management determine the overall
            effectiveness of the Agency’s implementation of data standards. Management did
            not periodically assess Agency progress against the corrective action plan and
            adjust the plan accordingly. According to Office of Management and Budget
            Circular A-123, documentation should be detailed and organized, and contain
            enough information to support management’s assertion regarding the sufficiency
            of implemented internal controls. Documentation should include evidence from
            personnel tasked with monitoring, improving, and assessing internal controls.
            Data standards affect data quality at each major step of the information collection,
            storage, and retrieval process. Until the Agency fully implements data standards,
            the accuracy of Agency data cannot be assured.

            Online Training May Not Ensure Working Knowledge of Data
            Standards Implementation

            The Agency cannot determine whether system owners and developers have the
            basic knowledge to implement data standards. Although required by Office of
            Management and Budget Circular A-123, the Agency did not document the
            assessment process over the internal control structure to monitor, improve, and
            assess the implemented training. For example, management had not made the
            online data standards implementation training mandatory for system owners and
            developers prior to beginning system development. In addition, EPA has no
            tracking or recordkeeping method in place to document which individuals have
            completed the training. We believe these key records would have helped to
            support management’s assertion that the training achieved its desired results.

            In its corrective action plan, the Agency stated that it would develop and conduct
            training on standards implementation for developers who support EPA program
            offices. In 2006, OEI developed classroom training to provide systems developers
            with a working knowledge of all approved data standards, which is needed to
            achieve conformance with approved standards. OEI geared this classroom training
            toward individuals managing EPA information systems, contractors and grantees
            developing information systems for the Agency, and any parties involved in
            environmental data exchange with the Agency. In December 2009, OEI
            transitioned from the traditional classroom training to a web-based training
            approach.

            Although the training module is accessible to its target audience, the training is
            not mandatory, and the Agency cannot determine which individuals have
            completed the training. Further, in contrast to the classroom training, course
            evaluation or feedback forms are not issued to participants to assess the overall
            quality of the online data standards implementation training. If the Agency does
            not make the training mandatory and put proper tracking and quality assessment



12-P-0519                                                                                        3
            methods in place, it has limited assurance that personnel have the expertise to
            support EPA program offices in conforming with all approved data standards.

            Subsequent to the issuance of our draft report, we met with Agency officials to
            discuss the draft report recommendations and their concerns. EPA officials
            indicated that the Agency no longer uses the online training as the primary
            method for informing system owners about data standards. EPA officials outlined
            plans for a more structured communication strategy, which included keeping data
            standards information up to date and developing implementation guidance. While
            we are encouraged by the Agency’s planned actions, our review of the current
            data standards website disclosed that it has not been updated recently, contains
            outdated information about training opportunities, and contains no information
            regarding standards implementation. Further, during our discussions, we noted
            Agency officials had not formally developed a new communication strategy and
            had not identified all methods they planned to use to further raise awareness about
            data standards.

            Data Standards Report Cards Are Inaccurate and Cumbersome

            EPA’s data standards report cards are inaccurate because program system
            administrators did not update READ (Registry of EPA Applications and
            Databases) with the status of their systems’ compliance with data standards.
            READ is the authoritative source of information about EPA information resources
            and contains information about an office’s compliance with data standards.
            Additionally, the data standards report cards are cumbersome and do not readily
            convey the Agency’s progress on data standards compliance. Report cards are 24
            pages long and do not succinctly and conclusively express the program offices’
            status regarding compliance with data standards.

            In the Agency’s data standards corrective action plan, the Agency outlined steps
            to (1) continue to track implementation of data standards, and (2) create a method
            for reporting compliance with data standards. This method would involve
            automating the process in READ and issuing a semiannual data standards report
            card to the Chief Information Officer (CIO) and senior program management. To
            address this corrective action, the Data Standards Branch personnel, along with
            the Enterprise Architecture team, issued an annual data call. In that data call,
            program offices were asked to update their systems information. The program
            system administrators we interviewed stated that they updated their system data
            standards compliance status during the Capital Planning and Investment Control
            (CPIC) process. This update is done by self-reporting data standards compliance
            information on the appropriate screen in READ.

            Our analysis of the data standards report card disclosed that several program
            office systems have not met the completion dates for compliance with applicable
            data standards. We found that some program offices’ systems have been
            noncompliant for at least 2 years. We found that some program offices did not



12-P-0519                                                                                     4
            update the database as part of the CPIC process with the current data standards
            compliance information. As the Agency strives to meet the intent of the data
            standards corrective action plan, it needs to re-enforce the importance of data
            standards compliance, which begins with accurate and timely data standards
            compliance information. Without accurate information, the CIO and senior
            management cannot rely on the data standards report cards and begin remediation
            to improve compliance with data standards.

            Data Standards Branch personnel stated that management does not use the report
            cards to make decisions. CIO and senior management may not use the report
            cards because they are not easy to understand and are unclear about data standards
            status. If Agency executives are to be held accountable for ensuring that program
            office systems comply with data standards, they must have a report card that
            easily conveys progress against compliance for the data standards applicable to
            each system.

            Subsequent to our review, the OIG met with the Agency regarding the report
            recommendations. The Agency did not agree with our recommendation to
            develop a policy that requires program offices to update READ. The Agency felt
            that providing more information within the annual data call was sufficient to
            inform offices about their responsibility for updating READ. We informed EPA
            officials that our analysis disclosed that not all offices were aware of what steps to
            take when they received the annual data call. Additionally, not all EPA offices
            received the data call. EPA officials acknowledged that providing more details
            within the data call and making a wider distribution of the annual guidance should
            result in more complete data in READ. Lastly, EPA officials indicated that READ
            has the capability to create high-level data standards report cards for senior
            Agency officials’ use. However, our audit disclosed that these reports were
            generated for OEI management and not being used to make program decisions.
            EPA officials acknowledged that more could be done to create a better report and
            to make it more accessible.

            Data Standards Conformance Reviews Are Not Performed or Planned

            The Agency cannot verify that all EPA systems conform to established data
            standards. The Agency no longer performs conformance reviews for systems
            required to comply with the Data Standards Policy. Without conformance
            reviews or some type of measurable plan to continue verification of data
            standards, management has limited assurance that common data elements are
            consistent across all EPA systems.

            During our review, the Agency provided a list of exchange network systems with
            the most recent data standards validation reviews. However, the Agency could not
            provide documentation for other systems that do not utilize the exchange network
            or central data exchange. The Agency has not included all applicable systems in
            its data standards conformance review process. Data standards conformance



12-P-0519                                                                                       5
            reviews are focused on exchange network systems only, which is not in line with
            the Data Standards Policy.

            We analyzed information technology investment documentation for 21 Agency
            systems to determine whether there are other systems that should comply with
            data standards. As of December 2011, 12 of 21 major information technology
            investments (57 percent) share data with two or more EPA programs. We asked
            Agency management whether these systems meet the criteria for data standards
            compliance. Management stated that the systems data are not significant enough
            to comply with data standards. We do not agree, because this view is not in
            accordance with the purpose of submitting funding request documentation for
            information technology investments. According to federal requirements, agencies
            should submit investment documentation for systems that support an Agency’s
            core mission functions. Thus, these 12 systems, and by extension, their data, merit
            conformance reviews to determine whether the data conform with established data
            standards and meet the Agency’s needs in terms of core mission responsibilities.
            Conformance reviews would further facilitate data sharing across EPA and
            partner systems.

            Further, according to EPA’s Data Standards Policy, these 12 non-exchange
            network systems should either be in compliance with data standards or have a
            data standards waiver on file with Agency officials. We requested that OEI
            provide the CIO-approved data standards waivers or documentation that excludes
            these systems form the data standards policy. The Agency was unable to provide
            such documentation relevant to the 12 non-exchange network systems. Based on
            our review of the 21 Agency systems, EPA made little progress to ensure that
            non-exchange network systems met data standards.

            We met with OEI personnel to discuss our concerns with the data standards
            corrective action plan. They shared a concept to develop data dictionaries for the
            Data Element Registry Service (DERS)—EPA’s registry of data dictionaries and
            their data elements. Management stated that it was actively working with program
            offices to develop usable data dictionaries that would be registered in DERS.
            As data dictionaries are registered, OEI plans to work with program offices to
            determine how data elements in the data dictionary map to EPA’s standardized
            data. This mapping will identify how systems conform to data standards. Unlike
            conformance reviews, OEI plans to register data dictionaries and crosswalk-
            related data elements with standards data elements in DERS, which will be a more
            automated method of determining data conformance.

            OEI confirmed that developing data dictionaries will be an ongoing and iterative
            process. Management plans to prioritize data dictionary development for those
            systems that are subject to CPIC and those that exchange information with other
            systems. While OEI will work with all program offices, focus will be on those
            systems that exchange information with EPA’s partners, including states, tribes,
            and industry. This effort will become EPA’s method for reviewing offices’ efforts



12-P-0519                                                                                     6
            to implement data standards. OEI expects the data dictionary development for
            systems and data sets to take at least 5 years. The plan OEI outlined during our
            meeting lacks a concrete and measurable strategy with timelines and milestone
            dates.

            We met with EPA officials subsequent to the issuance of our draft report. EPA
            officials indicated that data standards conformance reviews were too resource
            intensive and the Agency is no longer using this approach to ensure compliance
            with data standards. Management indicated that helping system owners develop
            useable data dictionaries was the prevailing methodology the Agency is using to
            ensure conformance with data standards. We inquired about the strategy’s
            objectives, planned actions, and major milestones and how the Agency would
            measure its progress for achieving this new strategy. EPA officials disclosed that
            while they are currently working with some offices to develop data dictionaries,
            no formal strategy has been developed. Furthermore, EPA acknowledged that
            more could be done to ensure data standards waiver requests were available and
            that the Agency would take steps to ensure the waivers are kept within the official
            record keeping system.

Conclusion
            Although EPA took steps to address its corrective action plan, actions taken were
            either incomplete or lacked steps to help management determine the overall
            effectiveness of actions taken. EPA should take additional steps to ensure that it
            fully implements data standards in existing and new systems. Such steps would
            include working with program offices to develop a plan for putting data standards
            in place.

Recommendations
            We recommend that the Assistant Administrator for Environmental Information
            and Chief Information Officer:

               1.	 Conduct and document a review of the data standards website to identify
                   areas where EPA could provide updated guidance on data standards.
                   Develop an action plan to produce needed information and implement a
                   process to annually review and update the data standards website.

               2.	 Develop and implement a new data standards communication plan that
                   outlines a structured approach for marketing and raising awareness of
                   EPA’s data standards and identifies key Agency opportunities for
                   promoting data standards.

               3.	 Add new language to the annual data standards data call memorandum
                   with specific guidance that directs EPA offices to update the required data
                   standards fields in READ.


12-P-0519                                                                                      7
               4.	 Increase the distribution of the annual data standards data call
                   memorandum to all system owners.

               5.	 Develop and distribute a high-level data standards report card that informs
                   EPA regional and program office executives about their offices’ progress
                   in complying with EPA data standards.

               6.	 Develop and implement a process to maintain data standards waivers
                   within EPA’s official record keeping system.

               7.	 Develop a formal plan that outlines EPA’s use of data dictionaries as the
                   methodology for facilitating compliance with data standards. The plan
                   should include, at a minimum, the strategy’s broad objectives, major
                   action items, and major milestone dates.

Agency Comments and OIG Evaluation
            In its February 9, 2012, response to the draft report, EPA did not agree or disagree
            with the draft report’s recommendations to address the findings. However, EPA
            cited actions already underway, as well as new actions that it believes would help
            the Agency continue to move toward greater conformance with data standards.
            The Agency indicated that it would pursue data standards outreach and
            communications using methods other than training. Additionally, the Agency
            indicated it would disseminate the data call to all READ stewards to ensure
            awareness of the requirement to update READ, and ensure the PDFs of the
            current waivers are archived in the Records Repository.

            We met with the Agency prior to receiving the response to the draft report to get a
            better understanding of the actions management is taking to address the reported
            findings and recommendations. During our discussion, the Agency provided an
            outline of actions they were taking to address the report findings. We accepted
            many of the proposed actions and sent the Agency revised draft report
            recommendations. Subsequent to receiving the Agency’s response to the draft
            report, the Agency notified the OIG via electronic mail that it concurred with the
            recommendations. The Agency also provided a complete corrective action plan to
            address our revised recommendations. We consider these recommendations open
            until the Agency completes its corrective action plan. Appendix B provides the
            full text of the Agency’s response to the draft report. Appendix C provides an
            excerpt of the Agency’s subsequent response to the draft report.




12-P-0519                                                                                      8
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                   POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                                 BENEFITS (in $000s)

                                                                                                                       Planned
    Rec.    Page                                                                                                      Completion   Claimed    Agreed-To
    No.      No.                          Subject                           Status1         Action Official              Date      Amount      Amount

     1        7     Conduct and document a review of the data                 O        Assistant Administrator for
                    standards website to identify areas where EPA                      Environmental Information
                    could provide updated guidance on data standards.                 and Chief Information Officer
                    Develop an action plan to produce needed
                    information and implement a process to annually
                    review and update the data standards website.

     2        7     Develop and implement a new data standards                O        Assistant Administrator for
                    communication plan that outlines a structured                      Environmental Information
                    approach for marketing and raising awareness of                   and Chief Information Officer
                    EPA’s data standards and identifies key Agency
                    opportunities for promoting data standards.

     3        7     Add new language to the annual data standards             O        Assistant Administrator for
                    data call memorandum with specific guidance that                   Environmental Information
                    directs EPA offices to update the required data                   and Chief Information Officer
                    standards fields in READ.

     4        8     Increase the distribution of the annual data              O        Assistant Administrator for
                    standards data call memorandum to all system                       Environmental Information
                    owners.                                                           and Chief Information Officer

     5        8     Develop and distribute a high-level data standards        O        Assistant Administrator for
                    report card that informs EPA regional and program                  Environmental Information
                    office executives about their offices’ progress in                and Chief Information Officer
                    complying with EPA data standards.
     6        8     Develop and implement a process to maintain data          O        Assistant Administrator for
                    standards waivers within EPA’s official record                     Environmental Information
                    keeping system.                                                   and Chief Information Officer

     7        8     Develop a formal plan that outlines EPA’s use of          O        Assistant Administrator for
                    data dictionaries as the methodology for facilitating              Environmental Information
                    compliance with data standards. The plan should                   and Chief Information Officer
                    include, at a minimum, the strategy’s broad
                    objectives, major action items, and major milestone
                    dates.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-P-0519                                                                                                                                                 9
                                                                                    Appendix A

                     Agency Corrective Action Plan
                       (as of February 27, 2006)
Weakness: While EPA has a substantial effort in place to develop data standards and provide
guidance for their implementation, the Agency needs to establish a process for ensuring that each
data standard adopted by the Agency is fully implemented in a cost-effective and timely manner.

To address this weakness, the Office of Environmental Information (OEI) is implementing three
concurrent course of action:

Continue to communicate with EPA program offices on need to implement data standards more fully;

Continue to track program implementation of data standards; and 

Continue to verify progress in implementing data standards. 


Executive Summary: While the Agency has a substantive effort in place to develop data
standards and provide guidance for their implementation, incorporation of data standards in
information collections from initial plans to obtaining the data for analysis is just becoming a
routine activity in all programs. Using data standards affects data quality at each major step of
the information collection, storage and retrieval process and is a factor in the usability of data
sets. Furthermore, if applying data standards causes a program to modify its business practices,
the implementation may take several years to conduct because of modifications to data gathering,
database design and development, and interpretation of results.


                                                 OEI              STATUS/
 CORRECTIVE ACTION MILESTONES                                                      DUE DATE
                                                 CONTACT          COMMENTS
 1. Continue to Communicate with EPA Program Offices on Need to Implement Data
 Standards More Fully
 1A. Develop a Communication Plan to: 1)         Dawn Banks                        03/2006
 address implementation of 15 upcoming           202-566-0625
 standards (the Institutional Controls
 Standard and various other standards related
 to Environmental Sampling, Analysis and
 Results), 2) promote awareness of
 implementation documentation including
 the Implementation Strategy and various
 procedures, and 3) promote use of best
 practices in the implementation of specific
 standards.




12-P-0519                                                                                      10
                                              OEI                STATUS/
 CORRECTIVE ACTION MILESTONES                                               DUE DATE
                                              CONTACT            COMMENTS
 1. Continue to Communicate with EPA Program Offices on Need to Implement Data
 Standards More Fully
 1B. Hold a System of Registry Users          Dawn Banks                    12/2006 and
 Conference to include promoting awareness    202-566-0625                  annually
 and use of existing data standards
 1C. Develop and Conduct Training             Dawn Banks                    10/2006 and
 on standards implementation for developers   202-566-0625                  ongoing
 supporting EPA program offices
 2. Continue to track program implementation of data standards
 2A. Make Tracking Report on Data             Dawn Banks                    06/2006 and
 Standards Implementation available in        202-566-0625                  ongoing
 Registry of EPA Applications and
 Databases (READ)
 2B.Continue to issue semi-annual Data        Dawn Banks                    March and
 Standards “Report Card”                      202-566-0625                  September
                                                                            annually
 3. Continue to verify progress in implementing data standards
 3A. Report on use of data standards          Dawn Banks                    04/2006
 validation processes in EPA Central Data     202-566-0625
 Exchange
 3B. Conduct Conformance Review of            Dawn Banks                    05/2006
 Estuary Program                              202-566-0625
 3C. Conduct Conformance Review “To Be        Dawn Banks                    TBD
 Determined by Office of Environmental        202-566-0625
 Information Big Decisions Initiative and
 Subject to Available Related Funding”.




12-P-0519                                                                               11
                                                                                     Appendix B

                   Agency Response to Draft Report


MEMORANDUM

SUBJECT:       Response to OIG Draft “EPA Data Standards Plan Completed but Additional
               Steps Are Needed”

FROM:          Malcolm D. Jackson
               Assistant Administrator and Chief Information Officer

TO:            Rudolph M. Brevard
               Director, Information Resources Management Assessments
               Office of Mission Systems
               Office of Inspector General

The Office of Environmental Information (OEI) appreciates the interest and emphasis placed on
data standards conformance by the Office of the Inspector General (OIG). In its draft “EPA Data
Standards Plan Completed but Additional Steps Are Needed,” dated January 4, 2012, OIG
identifies six recommendations to enhance compliance with data standards by EPA system
owners. In response to a meeting between the two offices, OEI outlines below the actions already
underway, as well as new actions, which will help the Agency continue to move toward greater
conformance with data standards.

The OIG recommendations were in addition to steps OEI had already taken to meet its
commitments in response to “Implementation of Data Standards” under the Federal Managers
Financial Integrity Act (FMFIA). From 2005 to 2010, OEI introduced considerable changes,
including a data standards screen in EPA’s Registry of EPA Applications and Databases (READ)
that allows system owners to self-report their data standards conformance, and a report function
in READ to track the status by office and by data standard. OEI also developed online training
modules for any individual who wishes to learn about data standards implementation.

OEI continues to support data standards. The draft “System Lifecycle Management (SLCM)
Procedure” includes a requirement for systems to implement data standards. There also is a draft
“Data Resources Policy” and its “Registration and Documenting Data Resources Procedure” that
require data be compliant with data standards.


In 2011, OEI put a registry for data dictionaries into production that will support data standards
implementation. The Data Element Registry Services (DERS) will enable OEI to map data
elements in system data dictionaries with the data elements in EPA’s data standards. The
crosswalk can be kept current by updating DERS with any updates to the system data
dictionaries.


12-P-0519                                                                                        12
OEI is working with program offices to develop comprehensive data dictionaries to be loaded
into DERS. Developing robust data dictionaries for the more than 120 Capital Planning and
Investment Control (CPIC) systems will take several years. As data dictionaries are registered,
OEI will work with the program offices to determine which data elements in a specific data
dictionary map to EPA’s standardized data elements.

Below are the six recommendations by OIG, and OEI’s responses and completion dates.

OIG Recommendation 1: Require system owners and developers to complete the data standards
implementation training.

   OEI Response: As agreed between OEI and OIG, Recommendations 1 and 2 are not
   necessary since OEI is already pursuing data standards outreach and communications using
   other methods. The Information Exchange and Services Division (IESD) within OEI has
   identified increased communications as a priority and has recently established a
   communications team to raise awareness of data standards as well as other IESD services.

   Specifically for data standards, OEI is developing implementation guidance for each data
   standard that will be posted to the data standards Webpage (www.epa.gov/datastandards). To
   ensure currency of information, OEI also will review this site at least annually. OEI also will
   discuss data standards at the upcoming Vendor Day in Spring 2012.

   Completion Dates: 

   Vendor Day: Spring 2012 

   Implementation Guidance: 2013 

   Communications: Ongoing 


OIG Recommendation 2: Develop and employ a mechanism to record and track those
individuals who have completed the training.

   OEI Response: Please see the response to OIG Recommendation 1.

OIG Recommendation 3: Develop a policy to update READ during the CPIC review process.

   OEI Response: The annual READ Data Call already requires that systems subject to the
   CPIC process must complete their READ records, including the data standards screen. OEI’s
   CPIC team provides a further check by mandating that systems subject to CPIC have fully
   populated READ records. The data call goes out to a wide audience, including Senior
   Information Officials (SIOs) and Information Management Officers (IMOs). Going forward,
   OEI will also disseminate the data call to all READ stewards to ensure awareness of this
   requirement.

   OEI also is developing two EPA policies and accompanying procedures, the System
   Lifecycle Management Procedure under the System Lifecycle Policy and the Data Resources
   Policy, which stipulate conformance to data standards.



12-P-0519                                                                                         13
   Completion Date: 

   System Life Cycle Management Policy and Procedure: 2012 

   Data Resources Policy and Procedure: 2012 

   READ Data Call: June 2012 


OIG Recommendation 4: Simplify the data standards report card for usability and ensure that it
is distributed to all relevant program office personnel.

   OEI Response: OEI will distribute, in conjunction with the data call, office-specific Data
   Standards Report Cards that highlight those systems that have indicated their status for
   certain data standards as “in process”. This will be an opportunity to raise awareness among
   senior management of the importance of data standards.

   Completion Date: 

   READ Data Call: June 2012        


OIG Recommendation 5: Develop and execute a plan to verify system data conformance with
data standards policies for all EPA systems, including timelines and milestone dates.

   OEI Response: OEI is working with program offices to develop data dictionaries. This effort
   will take many years as developing a robust data dictionary is time consuming and requires
   significant communication with system owners. Additionally, data dictionaries vary widely
   in size and complexity. For these reasons, OEI has an internal target of seven data
   dictionaries per year in lieu of a specific plan identifying systems and milestones.

   OEI also is formalizing its standard operating procedures for the DERS, which will include
   steps for obtaining and developing data dictionaries.

   Completion Date: 

   Data Dictionary Development: Seven data dictionaries per year. 

   DERS SOP: August 2012 



OIG Recommendation 6: Document and maintain data standards waivers for all EPA national
systems to comply with EPA’s Data Standards Policy.

   OEI Response: There is a process for documenting and maintaining data standards waivers.
   The READ Report Card provides information about systems that have requested waivers and
   the status of the waivers. OEI will ensure the PDFs of the current waivers are archived in the
   Records Repository.

   Completion Date: 

   Waivers archived in Records Schedule: February 2012 

   Waivers recorded in READ: Done





12-P-0519                                                                                       14
In conclusion, OEI promotes and facilitates data standards conformance and will continue to do
so. We believe we have an effective approach to managing data standards conformance while
providing service to the program offices. Thank you for bringing ideas for how to improve
outreach and value to this program through this assessment. For any questions, please do not
hesitate to contact John Harman at (202) 566-0748.

cc: 	Renee Wynn
     Andrew Battin
     Connie Dwyer




12-P-0519                                                                                    15
                                                                                  Appendix C

       Subsequent Agency Response to Draft Report

To: Rudy Brevard/OIG/USEPA/US@EPA
From: Jeffrey Wells/DC/USEPA/US
Date: 05/22/2012 07:19PM

Subject: Re: OIG Recommendations on Data Standards Conformance

Hi Rudy,

We concur with OIG's recommendations.

Thank you very much.

Jeff
________________________________
Jeff Wells
Acting Deputy Director
Office of Information Collection
Office of Environmental Information
U.S. Environmental Protection Agency

=====================================

From:       Jeffrey Wells/DC/USEPA/US
To:         Rudy Brevard/OIG/USEPA/US@EPA
Cc:
Date:       05/21/2012 06:12 PM
Subject:    OIG Recommendations on Data Standards Conformance


Hi Rudy,

I'm responding for Andy Battin and following up on an email you sent him asking for OEI's
response to the seven recommendations on our Data Standards program that your group
identified to us.

Here is the response from our office as requested. It is my understanding that our team has
previewed these responses with you and your team already - but that you were looking for an
email from us to codify them formally in response to the recommendations. I understand that the
next step is for OIG to issue the final report, which will include the seven recommendations
listed below. OEI will then respond within 90 days with the responses you see below in italics
along with implementation dates (see below) that address these recommendations. That, as I



12-P-0519                                                                                    16
understand it, is the last step in the process.

Here, below are the seven OIG recommendations along with our proposed responses and
dates for completion.

OIG Recommendations and OEI Responses

1. Conduct and document a review of the Data Standards website to identify areas where EPA
could provide updated guidance on Data Standards. Develop an action plan to produce needed
information and implement a process to annually review and update the Data Standards website.

OEI will include the actions to review the Data Standards website annually in the Data
Standards Communications plan; July 2012

2. Develop and implement a new Data Standards communication plan that outlines a structured
approach for marketing and raising awareness of EPA’s data standards and identifies key
Agency opportunities for promoting data standards.

OEI will update its data standards communications plan, which will identify steps for creating
increased awareness of EPA data standards; July 2012

3. Add new language into the annual Data Standards data call memorandum with specific
guidance that directs EPA offices to update the required data standards fields in READ.

OEI will include new language to the READ Data Call that directs EPA offices to update data
standards conformance status on the data standards screen in READ; June 2012

4. Increase the distribution of the annual Data Standards data call memorandum to all system
owners.

OEI will disseminate the READ Data Call to all Information Management Officers for
distribution to system owners; June 2012

5. Develop and distribute a high-level data standards report card that informs EPA regional and
program office executives about their office’s progress in complying with EPA data standards.

OEI will issue the high-level data standards report card as part of the READ Data Call; June
2012

6. Develop a formal plan that outlines EPA’s use of data dictionaries as the methodology for
facilitating compliance with data standards. The plan should include at a minimum the strategy’s
broad objectives, major action items, and major milestone dates.

OEI will develop a Standard Operating Procedure (SOP) for developing data dictionaries. It
will indicate that OEI intends to develop at least seven data dictionaries per year - focusing on
systems that are subject to Capital Planning and Investment Control (CPIC); September 2012



12-P-0519                                                                                      17
7. Develop and implement a process to maintain data standards waivers within EPA’s official
record keeping system.

OEI will maintain all waivers in READ and register all accepted waivers in the EPA Records
Schedule. OEI will add a sentence to the Data Standards screen in READ that reads: "If an
EPA Data Standard is not listed, the system owners have made the determination that the
standard is not applicable to his / her system."; August 2012

Source: Wells, Jeffrey. Acting Deputy Director of the Office of Information Collection, Office of
Environmental Information, responding for Andrew Battin, Director of the Office of Information
Collection. Excerpt from electronic correspondence. Subject, “OIG Recommendations on Data
Standards Conformance,” May 21, 2012 and May 22, 2012




12-P-0519                                                                                      18
                                                                                Appendix D

                                    Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Information Collection, Office of Environmental Information
Audit Follow-Up Coordinator, Office of Environmental Information




12-P-0519                                                                               19
